                          Office oflnspector General
                          Legal Services Corporation



3333 K Street, NW, 3rd Floor
\'{!;Ishingmn, DC 20007-3558
202.295.1660 (1') 202.337.6616 (f)
W\\'w.oig.lsc.gov




                                                    Jeffrey E. Schanz
                                                    Inspector General
                                                Legal Services Corporation



                                              Testimony Before the
                                Subcommittee on Commercial and Administrative Law
                                       House Committee on the Judiciary


                                                       April 27, 2010




                                                                                    =!bLSC
                                                                                     II
                                                                                      Arne,;",,',; !'<t"Mr for Equ.l Justice
                                      Introduction

Mr. Chairman, Congressman Franks, and other distinguished members, thank you for this
opportunity to comment on H.R. 3764, the Civil Access to Justice Act of 2009. My name is
Jeffrey Schanz. Since 2008, I have been Inspector General for the Legal Services
Corporation. I was a founding member of the United States Department of Justice Office of
Inspector General at its inception in 1989, and remained there until retiring as Director of the
Office of Policy and Planning in 2008. All told, I have now spent more than 36 years
performing audits and other types of IG work. Needless to say, I believe strongly in the
values of accountability, effectiveness and efficiency that are mandated by the Inspector
General Act of 1978, 5 U.S.c. app. 3.

Like all federal Inspectors General, it is my statutory duty to prevent and detect fraud, waste,
and abuse and to make recommendations to the head of the agency to improve the efficiency
and effectiveness of its programs and operations. The Inspector General also has a duty to
keep the Congress fully and currently informed of his findings and activities, and to comment
on existing and proposed legislation, regulations, and agency policies. Thus the Inspector
General serves both Congress and the head of his or her agency with equal thoroughness and
zeal.

The LSC OIG is charged with oversight not only of its parent agency but also of 136 separate
legal aid grantees, which receive a substantial portion of their operating funds in the form of
LSC grants. As Inspector general, I am obligated by statute to report serious problems to the
LSC Board of Directors, and to notify appropriate law enforcement authorities when my
office has found that there are reasonable grounds to believe that a crime has occurred. In
addition, the LSC OIG provides periodic reports to the Board and management of LSC and to
the Boards of Directors and management of LSC grantees. In order to carry out these
responsibilities effectively, it is important that my office have unimpeded access to records
and information, from both the Corporation and its grantees. See Section 6(a)(1) of the
Inspector General Act of 1978, as amended, 5 U.S.C. app. 3, § 6(a)(1) (authorizing each
Inspector General "to have access to all records, reports, audits, reviews, documents, papers,
recommendations, or other material available to the applicable establishment which relate to
programs and operations with respect to which that Inspector General has responsibilities
under this Act").

Provided the "agency head is committed to running the agency effectively and to rooting out
fraud, abuse and waste at all levels," the Inspector General "can be his strong right arm in
doing so, while maintaining the independence needed to honor his reporting obligations to
Congress." Inspector General Act of 1978, S. Rep. 95-1071, 95 th Cong., 2nd Sess, p. 9. To
ensure the objectivity of the IG, the IG Act grants the LSC IG the independence to determine
what reviews are performed; gain access to all documents needed for OIG reviews; publish
findings and recommendations based on OIG reviews; and report DIG findings and
recommendations to the LSC Board of Directors and to Congress.

Although the OIG is not a part of LSC management, we serve as an objective and
independent accountability expert for the LSC Board of Directors and LSC management. To


                                              1
be effective, the OIG works cooperatively with the Board and management, seeks their input
prior to choosing topics for OIG review, and keeps them informed of OIG activities. Within
their different statutory roles, the OIG and management of LSC share a common
commitment to improving the federal legal services program and increasing the availability
of quality legal services to the poor.
                                      Recent Activities

At this subcommittee's last hearing on the Legal Services Corporation, Chairman Cohen
noted that LSC and some of its grantees had been criticized for inappropriate use of federal
funds, noting that "there are special places held for people who steal from the poor."
Chairman Cohen wanted to know what steps LSC had taken to "protect against misuse of
federal funds and protect those funds entrusted to them for the benefit of people who need
that help."

The LSC OIG has recently undertaken a number of steps to address such concerns. During
the past 18 months, the LSC OIG has:

• Completed a series of audits following up on GAO review of LSC controls over grants
management and oversight, and provided LSC management with "roll-up" memoranda
summarizing audit findings and identifying matters requiring further management attention.
Overall, we reported on issues affecting over $1.47 million in LSC or LSC-derivative funds,
of which $435,000 was referred to management as questioned costs;

• Directed continuing audit efforts to review adequacy and effectiveness of internal controls
at grantees; these audits have resulted in questioned costs of over $229,000.

• Investigated a former grantee employee who was subsequently indicted on 73 counts of
mail fraud and thereafter pleaded guilty to defrauding the grantee and scores of its clients of
thousands of dollars.

• Undertaken an investigation involving a grantee that was ordered to divest over $2 million
in attorneys' fees and agreed not to seek LSC funding for five years.

• Conducted a joint investigation with the Department of Justice OIG of an acting executive
director of a grantee for stealing tens of thousands of dollars in grant funds; the acting
executive director was removed from his position and subsequently pleaded guilty to theft of
federal grant monies under programs funded by LSC and the Department of Justice's Office
of Violence Against Women.

• Launched a variety of initiatives to help prevent and deter fraud and abuse, including:
fraud alerts issued to all executive directors to highlight issues and vulnerabilities identified
in the course of OIG investigations or audits (e.g., control breakdowns that permitted a
$200,000 embezzlement at one grantee); onsite fraud awareness briefings; onsite fraud
vulnerability assessments; a guide on how to help prevent computer thefts; and significant
improvements in Hotline awareness and operations.




                                               2
In order to improve governance practices and improve accountability for federal funds, the
LSC OIG has, during the same period:

• Conducted an audit of LSC controls and practices with respect to consultant contracting.
The audit identified a number of issues requiring corrective action (e.g., potentially improper
classification of consultants for tax purposes; inadequate adherence to internal controls; and
multiple procedural weaknesses).

• Initiated an audit ofLSC's Technology Initiative Grant Program.

• Conducted on-going oversight of the grantee audit process, including desk reviews of
100% of grantees' audit reports and more in-depth and onsite reviews of selected IPAs' audit
work (Audit Service Reviews).

By continuing to press forward with these and similar activities, the LSC OIG is helping to
root out fraud, waste, and abuse in LSC and its grantees, and to improve the efficiency and
economy of the federal legal services program. Serving as an agent for positive change, the
OIG continues to work with the LSC Board and LSC management to maximize the use of
available funding by ensuring it is used to assist eligible indigent clients in resolving their
legal problems.
                                          H.R. 3764

Although H.R. 3764 contains positive measures to improve corporate governance and
accountability, if enacted in its current form it could hamper my office's ability to carry out
its statutory responsibilities to prevent and detect waste, fraud, and abuse in the Corporation
and its grantees, to ensure compliance with applicable statutory and regulatory provisions,
and to improve the effectiveness, efficiency and economy of the federal legal services
program. I have outlined my concerns with the legislation below.

                                            Audits

Certain provisions of H.R. 3764 could be read to undermine the LSC OIG's central
oversight role in the grantee audit process, which is currently governed by Section 509 of
the Omnibus Consolidated Rescissions and Appropriations Act of 1996, Pub. 1. 104-134,
110 Stat. 1321 ("1996 Act"). To understand how the audit provisions of H.R. 3764
would affect the OIG requires some acquaintance with the historical background of LSC
and the LSC OIG.

The LSC Act itself contains only a few provisions bearing directly on the audit function.
Section 1009(c) of the LSC Act requires the Corporation to "conduct, or require each
grantee, contractor, or person or entity receiving financial assistance under this
subchapter to provide for, an annual financial audit." 42 U.S.C. § 2996h(c). In addition,
Section 1009(c) sets forth certain administrative requirements; for example, the
Corporation must retain audit reports for five years, and make copies of the reports
available to GAO and members of the public. See id. at § 2996h(c)(I), (2). The audits



                                             3
mandated by the LSC Act are required to be performed in accordance with Generally
Accepted Auditing Standards ("GAAS").

LSC did not have an Inspector General at the time of the 1974 LSC Act or the 1977 LSC
Reauthorization Act. Thus, the audit provisions in the LSC Act do not take into account
the powers and responsibilities of the LSC Inspector General, which came into existence
in 1989. In the Inspector General Act of 1978, Pub. L. 95-452, 92 Stat. 1101, Congress
consolidated all non-programmatic audit operations under the Inspectors General. See 5
U.S.c. app. 3, § 8E(b) (requiring head ofDFE to transfer "offices, units, or other
components" with OIG-related functions to orG); S. Rep. No. 150, looth Cong., 1st Sess.,
at 3 (1987) ("defining "IG 'concept''' as involving "the consolidation of an agency's
audit and investigative functions and resources under a single high-level official reporting
directly to the agency head").

Moreover, Section I 005( e)(1) of the LSC Act specifies that the Corporation "shall not be
considered a department, agency, or instrumentality, ofthe Federal Government." 42
U.S.C. § 2996d(e)(1). As a result, laws that apply generally to federal departments,
agencies and instrumentalities do not apply to LSC absent a specific provision to the
contrary. As a result, neither the myriad of federal financial management and governance
laws that have been enacted over the past 33 years (such as the Single Audit Act of 1984
and the Single Audit Act Amendments of 1996) nor OMB Circulars such as A-133
(audits of state and local governments and nonprofits receiving federal grants) are
applicable to LSC and its grantees.

Recognizing the statutorily-mandated role and duties of the LSC OIG and hoping to
improve accountability for LSC funds, in 1996 Congress made a number of significant
changes to the grantee audit process by enacting Section 509 of the 1996 Act. Section
509: (1) mandated routine on-site monitoring of grantee compliance by means of annual
audits conducted by independent public accountants ("IPAs"); (2) provided that such
audits be conducted in accordance with Generally Accepted Government Auditing
Standards ("GAGAS") pursuant to guidance established by the LSC orG; (3) established
special requirements for interim reporting by recipients concerning noncompliance with
laws and regulations identified by their IP As during the course of audits; (4) gave the
Corporation, upon the recommendation of the OIG, authority to impose sanctions on
recipients failing to conduct audits in accordance with orG guidance; and (5) provided
for OIG removal, suspension, or debarment of IPAs upon a showing of good cause after
notice and opportunity for a hearing. See 110 Stat. 1321, Sec. 509(a)-(d).

The legislative history underlying Section 509 makes clear that Congress intended to
ensure the LSC OIG a central role in the conduct of grantee audits. In particular, the
conference report notes that Section 509 includes:

         modifications to language proposed by the Senate to clarify that only
         the Office of the Inspector General shall have oversight responsibility
         to ensure the quality and integrity of the financial and compliance
         audit process. Language is also included, as proposed by the Senate, to



                                             4
         clarify the Corporation management's duties and responsibilities to
         resolve deficiencies and non-compliance reported by the Office of the
         Inspector General. Further, language is included, as proposed by the
         Senate, authorizing the Office of the Inspector General to conduct
         additional on-site monitoring, audits, and inspections necessary for
         programmatic, financial and compliance oversight.

HOUSE RPT. 104-537 (emphasis supplied).

Moreover, the 1996 Act made clear that this new audit regime was to be "in lieu of the
financial audits otherwise required by section 1009(c)" ofthe LSC Act. 1996 Act, §
509(h). Thus, Section 509 aligned, for the first time, LSC grantee audit requirements
with the pre-existing statutory responsibility of Inspectors General to "take appropriate
steps to ensure that any work performed by non-Federal auditors complies with the
standards established by the Comptroller General [for audits of federal establishments]".
5 U.S.c. app. 3, § 4(b)(1)(C). See generally S. Rep. 95-1071, "Inspector General Act of
1978," Sept. 22, 1978, p. 2687 (noting that standards established by the Comptroller
General of the United States - i.e., GAGAS - are preferable to GAAS for audits
involving federal funds).

The 1996 Act established a new grantee audit regime at LSC, both expanding the scope
of recipient audits and clarifying the role of the LSC orG in overseeing them. Moreover,
by enacting Section 509, Congress attempted to bring oversight of LSC grantee audits
more in line with the standards that had already been made applicable to audits of states,
local governments, and nonprofit organizations receiving federal grants by the Single
Audit Act of 1984, P.L. 98-502, the Single Audit Act Amendments of 1996, P.L. 104-
156, and OMB Circular A-133.

H.R. 3764, however, would eliminate the audit-related requirements of Section 509. By
doing so H.R. 3764 would take LSC backwards to a time when the respective roles of
LSC management, the LSC OIG, and the IPAs were unclear, leading to unnecessary
confusion and overlap in functions and activities between various LSC offices. In an
August 2007 report, the GAO specifically identified such confusion and overlap as a
contributing factor in LSC's weak governance and accountability practices. See Legal
Services Corporation: Governance and Accountability Practices Need to Be Modernized
and Strengthened, GAO-OS-37.

Inexplicably, Section 15 ofH.R. 3764 ignores the IG Act's explicit grant of authority to
OIGs to oversee work performed by non-federal auditors. Nor does the bill mention the
orG's important role in promulgating standards and in providing oversight to "ensure the
quality and integrity of the financial and compliance audit process." Instead, it merely
provides that the "Corporation shall require an audit" of each recipient. Nor does the bill
acknowledge the IG Act's requirement that work performed by non-federal auditors
conform to Government Auditing Standards.




                                             5
H.R. 3764 would relax IPA audit requirements in other ways as well. Under current law,
IPAs are required to "report whether -

         (1) the financial statements of the recipient present fairly its financial
         position and the results of its financial operations in accordance with
         generall y accepted accounting principles;

         (2) the recipient has internal control systems to provide reasonable
         assurance that it is managing funds, regardless of source, in compliance
         with Federal laws and regnlations; and

         (3) the recipient has complied with Federal laws and regnlations
         applicable to funds received, regardless of source.

Pub. L. 104-134, § S09(a)(1)-(3).

H.R. 3764 would weaken these standards in several subtle ways. First, unlike Section
509, it would not require IPAs to report whether the recipient's financial statements fairly
present its financial position; whether the recipient has internal control systems meeting
certain standards; and whether the recipient has complied with the applicable laws and
regulations. Instead, H.R. 3764 would merely require each recipient to "prepare a report
that includes ... the financial statements of the recipient, including an unbiased
presentation of the recipient's financial position and the results of the recipient's financial
operations [and] ... a description of internal control systems of the recipient that provide
reasonable assurance that the recipient is managing funds, from all sources, in
compliance with Federal law."

Additionally, H.R. 3764 incorporates none of the provisions of the 1996 Act setting forth
special requirements for interim reporting by recipients concerning noncompliance with
laws and regnlations identified by their IPAs during the course of an audit, and allowing
the Corporation to impose sanctions on IPAs who fail to conduct audits in accordance
with OIG gnidance.

By eliminating specific reference to the OIG's central oversight role in the grantee audit
process, the audit provisions of H.R. 3764 appear to run counter to the intent of the
Inspector General Act of 1978 to consolidate all non-programmatic audit operations
under the Inspectors General, see 5 U.S.C. app. 3, § 8E(b), and vest the OIGs with the
responsibility to "provide policy direction for and to conduct, supervise, and coordinate
audits and investigations relating to the programs and operations of such establishment."
5 U.S.c. app. 3, § 4(a)(1).

The changes H.R. 3764 would work in LSC's auditing regime are not just cosmetic.
GAGAS audits are mandated for entities with statutory Inspectors General because they
carry greater assurance of accuracy and accountability than do those conducted pursuant
to GAAS. In comparison with GAAS, GAGAS requires the maintenance of higher
standards with respect to auditor qualifications, the quality of the audit effort, and the



                                               6
required contents of audit reports. By repealing the requirement that audits of LSC
grantees be conducted in accordance with GAGAS, H.R. 3764 would return the
Corporation to the confusing state of affairs that existed in 1992, when 38% of the
grantee audits submitted to LSC were conducted in accordance with GAGAS and the
remainder were conducted in accordance with GAAS. Like virtuall y every other non-
profit entity that receives substantial federal grant funding, LSC recipients should be
required to account for their use of federal dollars in accordance with rigorous
government auditing standards.

In this regard, moreover, H.R. 3764 runs counter to the clear intent of the Inspector
General Act of 1978, i.e., to bolster the ability of Federal OIGs to "provide policy
direction for and to conduct, supervise, and coordinate audits and investigations relating
to the programs and operations of such establishment." 5 U.S.C. app. 3, § 4(a)(I) (IG
Act).

Unlike other nonprofits receiving federal grants, which are required by OMB Circular A-
133 to be audited pursuant to Government Auditing Standards, under H.R. 3764 LSC
grantees would no longer be required to be audited pursuant to these well-established
standards.

Replacing Section 509 of the 1996 Act with reporting requirements that are less rigorous
than those imposed on federal grantees by OMB Circular A-133 would substantially
increase the risk that more funds will be lost as a result of unreasonable or unsupportable
expenditures, as well as fraud, embezzlement, or simply poor bookkeeping.

In this respect, H.R. 3764 appears to conflict with the statutory mandates of the IG Act,
which requires Inspectors General to ensure that non-federal auditors examining federal
programs adhere to Government Auditing Standards. See 5 U.S.C. app. 3, § 4(b)(1)(C)
("[Iln carrying out the responsibilities specified in subsection (a)(I), each Inspector
General shall ... take appropriate steps to ensure that any work performed by non-
Federal auditors complies with the standards established by the Cornptroller General [for
audits of Federal establishments]").

To address these problems, I recommend that H.R. 3764's current provision relating to
audits and audit requirements be deleted and replaced with a provision specifying that
such audits should be conducted in accordance with the reporting requirements set forth
in OMB Circular A-133, which sets forth the requirements applicable to audits of states,
local governments, and nonprofits expending federal funds.

In addition, I recommend that Section 1009 of the LSC Act be amended to specify that
the Inspector General shall oversee all grantee audits, and that such audits must be
conducted in accordance with GAGAS. In addition, as the LSC Act has not been
amended since LSC became subject to the IG Act in 1988, H.R. 3764 should be amended
to include a general statement to the effect that nothing in the amended LSC Act should
be construed to diminish or otherwise affect the authorities or responsibilities of the
Inspector General pursuant to the Inspector General Act of 1978, as amended.



                                             7
                                   Access to Records

By restricting the OIG's access to information protected from disclosure to third parties
by state and local bar rules, H.R. 3764 would substantially restrict the OIG's access to
grantee information and seriously hamper its ability to carry out meaningful audits and
investigations.

It is a long-established principle that the federal law of privilege generally applies in
subpoena enforcement proceedings brought by federal entities. See Linde Thomson
Langworthy Kohn & Van Dyke, P.c. v. Resolution Trust Corp., 5 F.3d 1508, 1513 (D.C.
Cir. 1993). The LSC Act, however, adds a slight complication to this principle in its
application to the LSC OIG (which was not in existence at the time the LSC Act was last
amended). Specifically, Section 1006(b)(3) ofthe Act, 42 U.S.C. § 2996e(b)(3), provides
that LSC may not

         interfere with any attorney in carrying out his professional
         responsibilities to his client as established in the Canons of Ethics and
         the Code of Professional Responsibility of the American Bar
         Association ... or abrogate as to attorneys in programs assisted under
         this subchapter the authority of a State or other jurisdiction to enforce
         the standards of professional responsibility generally applicable to
         attorneys in such jurisdiction.

Because an Inspector General's access to records is limited to those "available to the
applicable establishment which relate to programs and operations with respect to which
that Inspector General has responsibilities", 5. U.S.C. app. 3, § 6(a)(I), the LSC OIG
initially had considerable difficulty obtaining client names and other case-related
information (which is not, as a rule, protected by the attorney-client privilege) based in
part on interpretations of state bar rules, which generally require lawyers to protect the
confidentiality of virtually all information relating to clients. On a number of occasions
recipients' denial of such information made it extremely difficult for the LSC OIG to
carry out routine work, including case reporting audits; audits of client trust fund
accounts; and client satisfaction surveys.

Congress attempted to address these access problems by crafting Section 509(h) of the
1996 Act, which expressly supersedes the restrictions of § 1006(b)(3). Section 509(h)
provides:

         Notwithstanding section 1006(b)(3) of the Legal Services Corporation
         Act (42 U.S.C. 2996e(b)(3», financial records, time records, retainer
         agreements, client trust fund and eligibility records, and client names,
         for each recipient shall be made available to any auditor or monitor of
         the recipient, including any Federal department or agency that is
         auditing or monitoring the activities of the recipient, and any
         independent auditor or monitor receiving Federal funds to conduct such
         auditing or monitoring, including any auditor or monitor of the



                                              8
           Corporation, except for reports or records subject to the attorney-client
           privilege. 1

Despite the clear language of Section 509(h), LSC grant recipients have continued to
invoke state rules of professional responsibility to resist the enforcement of OIG
subpoenas. So far, these attempts have been unsuccessful. See U.S. v. Legal Services for
New York City, 249 F.3d 1077, 1083 (D.C. Cir. 2001) ("LSNYC") (noting that "§ 509(h)
is an explicit exception to § 2996e(b)(3)"); Bronx Legal Services v. Legal Services Corp.,
2002 WL 1835597, at * 4 (S.D.N.Y. Aug. 8,2002) ("[E]ven if the requested information
does constitute a client secret, plaintiffs are relieved of any perceived ethical obligations
to withhold client names and the nature of the representation because they are required by
[§ 509(h)] to disclose the requested information").

Notwithstanding the foregoing precedents, one grantee which is currently engaged in
resisting disclosure of records to the LSC OIG in a subpoena enforcement action has
recently invoked Section 1006(b)(3) in support of its contention that state law ethical
obligations prohibit it from disclosing client-related information to the OIG. See 9/14/07
Opposition to Petition for Subpoena Enforcement, at 37-40, United States of America v.
California Rural Legal Assistance, Inc, 07 -mc-123 (D.D.C.). (Making matters even more
confusing, the grantee has contended that the state law of attorney-client privilege, in
addition to the federal attorney-client privilege, may be applicable to the withheld
records. See id. at 37-40.)

H.R. 3764 would worsen this situation considerably. First, Section 7 of the bill would
delete LSC Act Section I 006(b )(3)' s reference to the "Canons of Ethics and the Code of
Profession Responsibility of the American Bar Association," and replace it with a
reference to the "applicable rules of professional responsibility or other laws of the State
or other jurisdiction where the attorney practices law". Second, Section 11 of the bill
would add a new provision to the LSC Act requiring that the Corporation's "monitoring
and evaluation activities" be "carried out in a manner that is consistent with the
applicable rules for the jurisdiction in which the recipient is being monitored, and ...
take reasonable steps to avoid imposing undue burden or expense on the recipient."
Third, Section 13 of the bill would require that the OIG would not "have access to any
information ... that is confidential under the applicable rules of professional
responsibility or that is subject to the attorney-client privilege." And fourth, the bill
contains no provision comparable to Section 509(h) of the 1996 Appropriations Act,
which provides the OIG access to "financial records, time records, retainer agreements,
client trust fund and eligibility records, and client names", notwithstanding the provisions
of § lO06(b )(3). In combination, these changes in the current statutory regime could
erode the LSC ~iG's ability to obtain records necessary to carrying out audits and
investigations.

Thus, in its current form, H.R. 3764 would place the LSC OIG in a highly
disadvantageous position by forcing it to reckon with not only the varying laws of

I The terms and conditions to which the 1996 Act subjected LSC funding, including those bearing on the
authorities of the OIG, have been incorporated by reference into all subsequent appropriations acts.


                                                    9
privilege in each distinct state or territory, but also with the professional responsibility
rules of each jurisdiction, each time it sought information from LSC grantees. Moreover,
the bill's requirement that LSC take "reasonable steps to avoid imposing undue burden
and expense" on a grantee when carrying out the "monitoring and evaluation activities"
set forth in Section 1007 would undoubtedly spark unnecessary disputes over the
questions of undue burden and expense, which the OIG is already required to consider in
the context of subpoena enforcement actions. See Linder v. National Sec. Agency, 94
F.3d 693, 695 (D.C. Cir. 1996) (district court is authorized to quash or modify unduly
burdensome subpoena).

In sum, by depriving the LSC OIG of the ability to obtain records from the grantees it is
charged with overseeing, the statutory alterations proposed in H.R. 3764 would leave
several hundred million dollars in federal funds to be spent with considerably less
oversight and accountability than at present. In this respect H.R. 3764 runs directly
counter to the intent of Congress, as expressed in the recently-enacted Inspector General
Reform Act of 2008, to enhance the authority of federal Inspectors General to root out
waste, fraud, and abuse in federally-funded programs. By complicating access by the
OIG and other monitors to recipient files, subjecting auditors and investigators to the
various provisions of state and territorial rules of professional responsibility, H.R. 3764
would guarantee endless litigation over the terms of access to recipient files, and thereby
allow LSC grantees to evade all but the most superficial oversight over their expenditures
of federal funds.

To address this problem in the current version of H.R. 3764, the LSC OIG proposes
engrafting the access provision of Section 509(h) into the bill, with the additional
clarification that only information subject to the federal attorney-client privilege may be
withheld from auditors or monitors of the grant recipient. In addition, all references to
the "applicable rules of professional responsibility" of the several states and territories
should be deleted from the statutory text wherever they appear.

                                     Federal Funds

Unlike current law, H.R. 3764 contains no provision stipulating that LSC grants are to be
considered federal funds for purposes of certain statutes. Accordingly, the bill would
deprive the LSC OIG of a useful tool for safeguarding taxpayer funds (a risky
proposition, as recent OIG audits and investigations have highlighted).

Among the provision of the 1996 Act that govern the use of LSC funds is Section
504(a)(19), which provides:

         None of the funds appropriated in this Act to the Legal Services
         Corporation may be used to provide financial assistance to any person
         or entity ... unless such person or entity enters into a contractual
         agreement to be subject to all provisions of Federal law relating to the
         proper use of Federal funds, the violation of which shall render any
         grant or contractual agreement to provide funding null and void, and,



                                             10
         for such purposes, the Corporation shall be considered to be a Federal
         agency and all funds provided by the Corporation shall be considered to
         be Federal funds provided by grant or contract.

To implement Section 504(a)(19), LSC has promulgated regulations identifying the
following statutes as applicable to money dispensed by the Corporation:

• 18 U.S.C. § 201 (Bribery of Public Officials and Witnesses)
• 18 U.S.C. § 286 (Conspiracy to Defraud the Government With Respect to
       Claims)
• 18 U.S.C. § 287 (False, Fictitious, or Fraudulent Claims)
• 18 U.S.c. § 371 (Conspiracy to Commit Offense or Defraud the United States)
• 18 U.S.C. § 641 (Public Money, Property, or Records)
• 18 U.S.c. § 1001 (False Statements or Entries)
• 18 U.S.C. § 1002 (Possession of False Papers to Defraud the United States)
.18 U.S.C. § 1516 (Obstruction of Federal Audit)
.31 U.S.C. § 3729-33 (Civil False Claims) (except that qui tam actions authorized
       by § 3730(b) may not be brought against the Corporation or its grantees)

45 C.F.R. § 1640.2(a)(I).

As with the previously-discussed provision conditioning the LSC ~IG's access to grantee
records on state professional responsibility rules, H.R. 3764's omission of a provision
applying laws concerning the proper expenditure of federal funds would leave several
hundred million dollars in federal funds to be spent with considerably less accountability
than at present.

Section 504(a)(19) is the product of a longstanding bipartisan consensus that LSC funds
should be considered federal funds for purposes of statutes bearing upon the proper use of
federal funds; a substantially similar provision was included in H.R. 2039, the Legal
Services Reauthorization Act of 1991, which was the last LSC reauthorization bill to pass
either House of Congress. (H.R. 2039, introduced by Rep. Barney Frank (D-Mass.),
passed the House of Representatives by the bipartisan margin of 253-154 on May 12,
1992.)

Although H.R. 2039 stalled in the Senate, in 1993 Representative John Bryant (D-TX)
used the unaltered text of H.R. 2039 as the starting-point for H.R. 2644, the LSC
reauthorization bill he introduced in the following (103'd) Congress. (H.R. 2644 never
made it out of the House Subcommittee on Administrative Law and Governmental
Relations. )

Both H.R. 2039 and H.R. 2644 provided that the Corporation was to be considered a
"department or agency of the United States Government" for purposes of 18 U.S.C. §§
286,287,641,1001 and 1002; "the term 'United States Government' [was to] include the
Corporation" for purposes of31 U.S.C. §§ 3729-33; LSC auditors were to be considered
"Federal auditors" for purposes of 18 U.S.c. § 1516; funds provided by the Corporation



                                            11
were to be "deemed Federal appropriations when used by a contractor, grantee,
subcontractor, or subgrantee of the Corporation"; and LSC funds were to be deemed
"benefits under a Federal program involving a grant or contract" for purposes of 18
U.S.C. § 666, which concerns theft or bribery involving federally-funded programs. See
H.R. 2039, 102nd Cong., 2nd Sess., at § 4 (reported with an amendment, Mar. 31, 1992);
H.R. 2644, 103'd Cong., lSi Sess., § 4 (introduced July 15, 1993).

In addition to receiving bipartisan support in the Congress, the "federal funds" provision
in H.R. 2644 received the approval of the Clinton Administration. See Hearing Before
the Subcommittee on Administrative Law and Governmental Relations of the Committee
on the Judiciary, 103,d Cong., 1st Sess., on H.R. 2644 (Sept. 22,1993) (Prepared
Statement of Webster L. Hubbell, Associate Attorney General), at 89:

         The flip side of local control is the need for effective, yet nondisruptive
         monitoring by the Corporation to make sure the services being
         provided with federal funds are efficient and effective. H.R. 2644
         adeptly balances these competing goals. The bill provides a variety of
         new protections to guard against the misuse or misappropriation of
         Corporation funds. For example, the theft or embezzlement of funds
         provided by the Corporation will be treated like theft or embezzlement
         of any other federal appropriation under our criminal statutes.

The LSC reauthorization bills introduced in the Republican-led 104th Congress were, in
                                                               nd
many ways, quite different from those introduced in the 102 and 103'd Congresses. In
at least one respect, however, they were identical to their predecessor bills: both the
House and Senate bills contained language identical to that in the Frank and Bryant bills
requiring LSC funds to be deemed federal funds for certain purposes. See H.R. 1806,
104th Cong., 1st Sess., § 5 (introduced June 8,1995 by Rep. McCollum); S. 1221, 104th
Cong., 1st Sess., § 5 (introduced Sept. 7,1995 by Senator Kassebaum).

It should be noted that theft or embezzlement of LSC funds is not an unheard-of
phenomenon among LSC recipients. In a recent Semiannual Report to Congress, for
example, the LSC OIG reported that a grantee employee with the responsibility for
preparing checks and reconciling bank statements had been making checks out to herself
and depositing them into her personal account. See LSC OIG Semiannual Report, April
2009, at 12. The investigation revealed that the employee had embezzled roughly
$200,000 of program funds to pay for personal expenses by writing checks from the
program payable to herself; using the program's debit and credit cards for cash
withdrawals and personal purchases; and using the program's general bank account to
pay for her personal credit cards via electronic payment. See id. The LSC OIG recently
referred this matter to the United States Department of Justice for prosecution under
federal laws.

There is no reason why congressionally-appropriated LSC funds should lose their federal
character for purposes of allowing federal prosecutions in cases of bribery, theft, fraud, or
embezzlement. Moreover, in this respect H.R. 3764 runs directly counter to the intent of



                                             12
Congress, as expressed in the recently-enacted Inspector General Reform Act of 2008, to
enhance the authority of federal Inspectors General to root out waste, fraud, and abuse in
federally-funded programs.

To rectify this deficiency in H.R. 3764, I recommend that the Committee adopt a
provision similar to Section 504(a)(19) of the 1996 Act, but modified to correct certain
deficiencies of Section 504(a)(19).

Although there is no indication in the legislative history of the 1996 Act why the specific
statutory references were omitted from the appropriations rider that ultimately became
Section 504(a)(19) (following the veto of two previous appropriations bills), it is clear
that LSC took its cue from the cognate provisions in the pre-1996 reauthorization bills
when it published its regnlations implementing Section 504(a)(19). See 62 Fed. Reg.
19424, 19425 (noting that H.R. 1806 "expressly cites most of the laws included in this
part").

Nevertheless, while Section 504(a)(19) requires that grantees agree to be bound by all
federal statutes relating to the proper use of federal funds, LSC's implementing
regnlations, at 45 C.F.R. § 1640, do not identify all federal statutes relating to the proper
use of federal funds.

In particular, the regulations contain no mention of 18 U.S.C. § 666, which is the primary
federal statute to prosecute cases involving theft or bribery involving non-federal officials
who have been entrusted to administer federal funds. It was enacted to "fill a gap caused
by the difficulty of tracing federal monies" in prosecutions undertaken pursuant to 18
U.S.C. § 641, which covers theft or embezzlement of federal property. United States v.
Westmoreland, 841 F.2d 572, 576 (5 th Cir. 1988). As the Senate Report on Section 666
explained:

         [T]here is no statute of general applicability in this area, and thefts from
         other organizations or governments receiving Federal financial
         assistance can be prosecuted under the general theft of Federal property
         statute, 18 U.S.c. § 641, only if it can be shown that the property stolen
         is property of the United States. In many cases, such prosecution is
         impossible because title has passed to the recipient before the property
         is stolen, or the funds are so commingled that the Federal character of
         the funds cannot be shown. This situation gives rise to a serious gap in
         the law, since even though title to the monies may have passed, the
         Federal Government clearly retains a strong interest in assuring the
         integrity of such program funds. Indeed, a recurring problem in this
         area (as well as in the related area of bribery of the administrators of
         such funds) has been that State and local prosecutors are often
         unwilling to commit their limited resources to pursue such thefts,
         deeming the United States the principal party aggrieved.




                                              13
S.Rep. No. 225, 98th Cong., 2d Sess. 369, reprinted in 1984 U.S. Code Congo &
Admin. News 3182, 3510, as quoted in Westmoreland, 841 F.2d at 576-77.

Given the widely-recognized inadequacy of Section 641 for the prosecution of thefts of
federal grant funds by non-federal officials, and the evident Congressional intent to
include Section 666 among those federal laws which were to be made applicable to LSC
funds by Section 504(a)(19) of the 1996 Act, see H.R. 2039, 102nd Cong., 2nd Sess., at §
4; H.R. 2644, l03 rd Cong., 1st Sess., § 4; H.R. 1806, 104th Cong., 1st Sess., § 5; S. 1221,
104th Cong., 1st Sess., § 5 (making Section 666 applicable to LSC funds), I recommend
that H.R. 3764 correct this oversight by making Section 666 applicable to LSC funds.

                                        Timekeeping

Other provisions of H.R. 3764 are troubling as well. For example, the bill would make it
more difficult for the LSC OIG and other monitors to ascertain the source of funding
behind grantee activities by repealing current statutory provisions that require recipients
to account separately for receipts and disbursements of LSC and non-LSC funds. In
addition, the bill would repeal the current statutory requirement that grantees make their
timekeeping records available to monitors. Pub. L. 104-134, § 504(a)(1O)(A)-(C).

Prior to the 1996 Act, LSC grantees were required to account for and report receipts and
disbursements of non-LSC funds as "separate and distinct" from LSC funds. In the
absence of any timekeeping requirement for recipient staff, however, it was difficult for
an outside monitor to assess whether LSC funds had been used for prohibited purposes.

Section 504(a)(1O) of the 1996 Act went some way toward remedying this situation by
requiring recipients to "maintain records of time spent on each case or matter"; account
for funds received from sources other than LSC "as receipts and disbursements ...
separate and distinct from Corporation funds"; and make their timekeeping records
available to auditors and other monitors (including the LSC OIG). See Pub. L. 104-134,
Section 504(a)(1O)(A)-(C).

H.R. 3764, however, would make it even more difficult than at present for monitors to
ascertain the source of funding behind grantee activities. In place of Section 504(a)(lO)'s
somewhat detailed recordkeeping requirements, Section 11 of H.R. 3764 would merely
require LSC to ensure that "all attorneys and paralegals employed by a recipient ...
maintain records of time spent on each case or matter supported in whole or in part with
funds provided under this title."

Not only would H.R. 3764 fail to improve grantees' accountability for LSC funds; it
would actually repeal the current statutory requirement that grantees make their
timekeeping records available to monitors. Pub. L. 104-134, § 504(a)(1O)(A)-(C).

What is more, H.R. 3764 would loosen these accountability requirements at the same
time as it would repeal the 1996 Act's restrictions on grantees' use ofnon-LSC funds for
restricted activities. In combination, these two innovations would make it nearly


                                             14
impossible for the OIG or any other monitor to ensure that LSC funds are not being spent
in furtherance of prohibited activities. The LSC OIG has surfaced a number of problems
in recent years indicating more oversight is required, not less.

By seriously weakening the OIG's ability to monitor grantees' use of federal dollars, this
provision of H.R. 3764 runs directly counter to the intent of Congress, as expressed in the
Inspector General Reform Act of 2008, to enhance the authority of federal Inspectors
General to root out waste, fraud, and abuse in federally-funded programs.

To remedy this deficiency in H.R. 3764, I recommend that, at the very least, the bill be
amended to include the timekeeping requirements set forth in Section 504(a)(1O) of the
1996 Act. In addition, given LSC's past disinclination to amend its Part 1635 regulations
to require grantees to implement a timekeeping system that links employee time records
to the relevant funding source, the OIG recommends that the bill be amended to include
such a requirement in the LSC Act itself, a requirement that would greatly increase
accountability for the use of funds throughout the LSC-funded legal services delivery
system.

                                      Competition

H.R. 3764 would eliminate a number of statutory provisions that Congress has put in
place in an attempt to bring about competition in the LSC grant award process. These
provisions, which Congress inserted in the 1996 and 1998 LSC Appropriations Acts,
require that LSC mandate publicly announced grant competitions; consider a grantee's
history of compliance (or noncompliance) with applicable statutes and regulations when
making grant award decisions; avoid giving preferential treatment to previous grantees;
and institute a new selection process upon a finding of noncompliance. They also allow
LSC to debar a recipient for good cause.

In place of these pro-competition provisions, H.R. 3764 would require only that LSC
ensure basic field grants are distributed "on the basis of a system of competitive bidding,
in accordance with Legal Services Corporation regulations .... "

Prior to enactment of the Omnibus Consolidated Rescissions and Appropriations Act of
1996, Pub.L. No. 104-134 (1996) ("1996 Act"), incumbent LSC grantees enjoyed
presumptive refunding by virtue of two provisions of the LSC Act. First, Section
1007(a)(9) of the LSC Act requires the Corporation to ensure that each recipient applying
for refunding "is provided interim funding necessary to maintain its current level of
activities" until the refunding has been approved and the funds have been received by the
grantee, or the application has been finally denied. See 42 U.S.c. § 2996f(a)(9). Second,
Section 1011 of the Act prohibits LSC from terminating a grant or denying a refunding
application unless the recipient "has been afforded reasonable notice and opportunity for
a timely, full and fair hearing .... " 42 U.S.c. § 2996j(2).

Section 503(b) of the 1996 Act abolished the presumptive refunding regime and required
LSC to implement a competitive selection process in the awarding of grants.


                                             15
Section 503(c) of the 1996 Act, in turn, required LSC to issue implementing regulations
specifying certain selection criteria for grantees competing for LSC grants, including:

         (1) a demonstration of a full understanding of the basic legal needs of
         the eligible clients to be served and a demonstration of the capability of
         serving the needs; the quality, feasibility, and cost effectiveness of a
         plan submitted by an applicant for the delivery of legal assistance to the
         eligible clients to be served; and (2) the experience of the Legal
         Services Corporation with the applicant, if the applicant has previously
         received financial assistance from the Corporation, including the record
         of the applicant of past compliance with Corporation policies, practices,
         and restrictions.

Pursuant to Section 503(d), such regulations must

         ensure that timely notice regarding an opportunity to submit an
         application for such an award is published in periodicals of local and
         State bar associations and in at least 1 daily newspaper of general
         circulation in the area to be served by the person or entity receiving the
         award.

In addition, Section 503(e) provides: "No person or entity that was previously awarded a
grant or contract by the Legal Services Corporation for the provision of legal assistance
may be given any preference in the competitive selection process."

LSC issued the required regulations, establishing a competitive grant application process
that implements the requirements of Section 503. See 45 C.F.R. § 1634 (requiring LSC
to consider compliance history in grant award process; mandating public notice of grant
availability; and forbidding preferences to incumbent grantees).

In LSC's 1998 appropriation Congress added additional requirements to the competitive
selection process. Section 501(b) of the 1998 Commerce, State, and Justice
Appropriations Act, Pub. L. 105-116 ("1998 Act"), bolstered LSC's ability to implement
a competitive grant application process by rendering Sections 1007(a)(9) and 1011 of the
LSC Act inapplicable to the competitive selection process.

In addition, Section 501(c) of the 1998 Act provides that the Corporation may institute a
new competitive selection process for a recipient's service area during the grant term if it
finds, after notice and an opportunity for the recipient to be heard, that the recipient has
failed to comply with the LSC Act or any other applicable statute.

Finally, Section 504 of the 1998 Act gives the Corporation authority to debar recipients
("on a showing of good cause") from receiving additional LSC grants, provided the
recipient has received notice and an opportunity to be heard.




                                             16
H.R. 3764 would delete Section 1007(a)(9) and render inapplicable all provisions
contained in the 1996 and 1998 Acts, while re-activating Section 1011 of the LSC Act,
which requires that grantees be afforded notice and a hearing before funding is suspended
or terminated, or an application for refunding denied. See 42 U.S.c. § 2996j.

Thus, although Section 11 of H.R. 3764 would require that LSC ensure basic field grants
are distributed "on the basis of a system of competitive bidding, in accordance with Legal
Services Corporation regulations," H.R. 3764 in fact removes all the statutory provisions
that have been put in place to encourage and implement actual competition.

Moreover, under H.R. 3764, LSC would once again be required to comply with the time-
consuming procedures of Section 1011 of the LSC Act before it could deny an
application for refunding, or terminate or suspend a grantee's funding. This provision
runs directly counter to the effort to promote competition for LSC grants, and would
severely limit the Corporation's ability to deal with grantees engaging in fraudulent
practices; non-performing grantees; and grantees failing to comply with the requirements
of federal law. (Although these provisions do not directly affect matters within the OIG's
jurisdiction, we have a duty to comment on them because of their tendency to increase
the number of opportunities for fraud, waste and abuse within LSC programs and their
effect on the efficiency and effectiveness of LSC programs and operations.)

In addition, while LSC regulations currently embody the requirements of Section 503 of
the 1996 Act, there is nothing in H.R. 3764 requiring that future LSC regulations
mandate publicly announced grant competitions; require consideration of a grantee's
history of compliance (or noncompliance) with applicable statutes and regulations when
making grant award decisions; avoid giving preferential treatment to previous grantees;
or allow the Corporation to institute a new selection process upon a finding of
noncompliance, or debar a recipient for good cause.

Although there is currently little competition for LSC grants despite Section 503's
mandate, H.R. 3764 would unnecessarily diminish the likelihood of any future
competition by removing entirely the competition standards put in place by the 1996 and
1998 Acts, and reinstating the cumbersome procedures mandated by Section 1011 of the
LSCAct.

To remedy the foregoing deficiencies in H.R. 3764, the LSC OIG recommends that H.R.
3764 be amended to include a competition requirement that, at the very least, forbids
preferential treatment for incumbent grantees; mandates public notice of grant
availability; and requires the Corporation to consider a grantee's compliance history
when making grant award decisions.

In addition, the LSC OIG recommends that the competition provisions of the 1996 and
1998 Acts be included so as to facilitate the competitive process and remove unnecessary
barriers to recompetition in the event an incumbent grantee is failing to comply with the
LSC Act or other applicable statutes.




                                            17
Finally, the LSC OIG recommends that, in the interests of promoting competition for
LSC grants, Section 1011 of the LSC Act be deleted.

                                        Conclusion

By weakening the LSC OIG's oversight role in grantee audits, depriving LSC funds of their
federal character, and limiting the LSC OIG's access to grantee records, many of the
provisions of H.R. 3764 run directly counter to Congress' intent, as expressed in the recently-
enacted Inspector General Reform Act of 2008, to enhance the authority of federal Inspectors
General to root out waste, fraud, and abuse in federally-funded programs.

This is worrisome given that the appropriations authorized for LSC under H.R. 3764 would
be roughly double the Corporation's current appropriation. It is also troubling in light of
recent reports issued by the Government Accountability Office strongl y indicating that LSC
needs to implement improved governance and accountability practices, and to improve its
grantee oversight practices. See August 2007 GAO Report, Legal Services Corporation:
Governance and Accountability Practices Need to Be Modernized and Strengthened, GAO-
07 -993; December 2007 GAO Report, Legal Services Corporation: Improved Internal
Controls Needed in Grants Management and Oversight, GAO-08-37. See also 7/7/09 Audit
of Legal Services Corporation's Consultant Contracts (finding that LSC did not regularly
follow its own written policies and procedures on consultant contracting process, and may
have entered into independent contractor agreements with individuals who should have been
classified as employees under IRS rules); 8/10/09 Report on Selected Internal Controls,
Legal Aid of Northwest Texas (finding unsupported expenditure of $188,522 by Legal Aid of
North West Texas for multi-story stone wall composed of imported Italian stone).

I appreciate the opportunity to offer my views on this proposed legislation, and I am hopeful
that some consensus can be achieved on the issues I outlined above. Accountability,
responsibility and transparency in the expenditure of taxpayer dollars should not be a
controversial issue. I stand ready to assist the committee in incorporating the changes I have
outlined above to ensure the LSC Office of Inspector General can truly function as the
"strong right arm" of the Legal Services Corporation, helping to ensure the most efficient and
effective use of limited federal funds for the Corporation's critical mission: "Equal Justice
for All."




                                            18
